NO. 20-6448

IN THE SUPREME COURT
OF THE UNITED STATES
EUGENE DAVIS,
Petitioner,
v.

HERMAN QUAY, WARDEN,
Respondents

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
CERTIFICATE OF SERVICE
REPLY BRIEF OF PETITIONER

HEIDI R. FREESE, ESQ.
Federal Public Defender

FREDERICK W. ULRICH, ESQ.*
Assistant Federal Public Defender

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender

TAMMY L. TAYLOR, ESQ.
Staff Attorney

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
Counsel for Petitioner
April 23, 2021

*Counsel of Record

I, Frederick W. Ulrich, Esquire, a member of the Bar of this Court, hereby
certify that on this 23rd day of April, 2021, copies of the Reply Brief of Petitioner
in the above-captioned case were hand delivered and/or mailed, first-class postage
prepaid, to the following:
Elizabeth Prelogar, Esquire
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Patricia S. Dodszuweit, Clerk
United States Court of Appeals
for the Third Circuit
601 Market Street, Room 21400
Philadelphia, PA 19106

Nicholas L. McQuaid, Esquire
Acting Assistant Attorney General
United States Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Joel S. Johnson, Esquire
Attorney
United States Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Melissa A. Swauger, Esquire
United States Attorney’s Office
228 Walnut Street, Room 220
Harrisburg, PA 17101
melissa.swauger@usdoj.gov
I further certify that I am a member of the Bar of this Court and that all
parties required to be served have been served.
Respectfully submitted,
HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

/s/ Frederick W. Ulrich
FREDERICK W. ULRICH, ESQ.
Assistant Federal Public Defender

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender

TAMMY L. TAYLOR, ESQ.
Staff Attorney

April 23, 2021

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
fritz_ulrich@fd.org
Counsel for Petitioner

